OFFICE OF AUDIT
FORT WORTH REGION
FORT WORTH, TEXAS




                      The City of Houston
                        Houston, Texas

   The City of Houston Could Have Better Used Its
   Community Development Block Grant Disaster
     Recovery Downpayment Assistance Funds




AUDIT REPORT NUMBER 2012-FW-1011            JULY 19, 2012
                                                        Issue Date: July 19, 2012

                                                        Audit Report Number: 2012-FW-1011




TO:            Yolanda Chavez,
               Deputy Assistant Secretary for Grant Programs, DG

               //signed//
FROM:          Gerald R. Kirkland
               Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT:       The City of Houston Could Have Better Used Its Community Development Block
                 Grant Disaster Recovery Downpayment Assistance Funds


       Enclosed is the U. S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the City of Houston’s Community
Development Block Grant (CDBG) Disaster Recovery downpayment assistance program.

        HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

        The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post
its publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

        If you have any questions or comments about this report, please do not hesitate to call me
at (817) 978-9309.
                                             July 19, 2012
                                             The City of Houston Could Have Better Used Its Community
                                             Development Block Grant Disaster Recovery Downpayment
                                             Assistance Funds



Highlights
Audit Report 2012-FW-1011


 What We Audited and Why                      What We Found

We audited the City of Houston’s             The City could have better planned and implemented
Community Development Block Grant            its program. Further, it did not always administer
(CDBG) Disaster Recovery                     program funds in accordance with applicable rules and
downpayment assistance program. The          regulations. Specifically, the City did not limit
program allowed the City to provide up       downpayment assistance to persons and properties that
to $45,000 in downpayment assistance         most needed the assistance, was overly generous with
for homebuyers in low to moderate            its assistance, and violated its contract with the State
income areas within the City limits. We      and various Federal rules and regulations. The State
initiated the audit as part of the U. S.     detected many of the City’s violations and did not
Department of Housing and Urban              reimburse the City for the associated expenses.
Development (HUD), Office of                 However, the City did not award funds fairly because
Inspector General’s (OIG) annual audit       one of its officials granted unwarranted and
plan to implement oversight of Disaster      unauthorized waivers of program requirements. These
Recovery funds to prevent fraud, waste,      conditions occurred because City officials erroneously
and abuse. Our objective was to              concluded that their plan for providing downpayment
determine whether the City had               assistance with the program funds would be the best
adequate internal controls to ensure that    use of those funds. Further, City officials either did
it administered the program funds in         not know program rules or knew them but believed
accordance with applicable HUD               that the City had adequate internal controls to ensure
requirements, laws and regulations, and      that the funds would be used in accordance with its
State of Texas program requirements.         contract, Federal rules and regulations, and State
                                             requirements.
 What We Recommend

We recommend that the Deputy
Assistant Secretary for Grant Programs
require the City to ensure that it submits
for the State’s approval an exception
policy that specifically addresses all
waivers granted by the City.
                           TABLE OF CONTENTS
Background and Objectives                                                    3

Results of Audit
      Finding : The City Could Have Better Used Its CDBG Disaster Recovery   5
                Downpayment Assistance Program Funds

Scope and Methodology                                                        12

Appendixes
   A. Auditee Comments and OIG’s Evaluation                                  13
   B. Case Deficiencies                                                      17




                                           2
                         BACKGROUND AND OBJECTIVES

The Community Development Block Grant (CDBG) program provides grants to the State of
Texas and local governments to aid in the development of viable urban communities. Local
governments are to use grant funds to provide decent housing and suitable living environments
and expand economic opportunities, principally for persons of low and moderate income. To be
eligible for funding, every CDBG-funded activity, except for program administration, must meet
one of the program’s following three national objectives:

    •   Benefit low- and moderate-income persons,
    •   Aid in preventing or eliminating slums or blight, or
    •   Address a need with a particular urgency because existing conditions pose a serious and
        immediate threat to the health or welfare of the community.

In response to disasters, Congress enacted the Consolidated Security, Disaster Assistance, and
Continuing Appropriations Act, 2009 (Pub. Law 110-329), on September 30, 2008. The Act
appropriated $6.1 billion through the CDBG program for “necessary expenses related to disaster
relief, long-term recovery, and restoration of infrastructure, housing, and economic revitalization
in areas affected by hurricanes, floods, and other natural disasters occurring during 2008 for
which the President declared a major disaster.” In 2008, Texas’ gulf coast was severely
impacted by three hurricanes and a tropical storm. Texas cited preliminary unreimbursed
damages of $29.4 billion for the 2008 hurricane season. In 2009, Texas received more than $3
billion in CDBG Disaster Recovery funding authorized by the Act through two allocation
rounds. Disaster Recovery grants often supplement disaster programs of various other Federal
agencies.

The City of Houston received more than $87 million in CDBG Disaster Recovery funding to
address the effects of Hurricanes Dolly and Ike. The Texas Department of Rural Affairs was
designated as the grantee or the entity responsible to the U. S. Department of Housing and Urban
Development (HUD) for the grant administration. The Texas Department of Housing and
Community Affairs partnered with the Texas Department of Rural Affairs and administered the
Disaster Recovery funding associated with housing. The Texas Department of Housing and
Community Affairs was the program administrator and signed a contract with the City on
August 12, 2009. 1 The City set aside $11 million of the $87 million and named the program the
DownPayment Assistance Program for Hurricanes Dolly and Ike. The City used this
downpayment assistance program to help beneficiaries pay downpayments, closing costs, and
principal reductions. 2 By September 2011, the City had provided $10.8 million 3 in such
downpayment assistance to 292 home buyers. The State reimbursed the City only around $10.1

1
    Effective July 1, 2011, the governor of Texas changed the State agency responsible for the administration of the
    Disaster Recovery funds to the Texas General Land Office.
2
    The City’s use of the term downpayment assistance for this program includes downpayments, closing costs, and
    principal reductions. Therefore, the term downpayment assistance in this report also includes downpayments,
    closing costs, and principal reductions unless otherwise specified.
3
    The State did not reimburse the City for 9 of the 292 applicants. The City received only around $10.1 million in
    reimbursement from the State.

                                                         3
million for 283 home buyers. The City transferred the remaining unobligated $891,500 for use
in repairing single family homes.

Our objective was to determine whether the City had adequate internal controls to ensure that it
administered the program funds in accordance with applicable HUD requirements, laws and
regulations, and State program requirements.




                                                4
                                 RESULTS OF AUDIT


Finding: The City Could Have Better Used Its CDBG Disaster
Recovery Downpayment Assistance Program Funds
The City did not limit downpayment assistance to persons and properties that most needed
disaster assistance, was overly generous with its assistance to some recipients, violated its
contract with the State and various Federal rules and regulations, and allowed a City official to
grant unauthorized and unwarranted waivers of program requirements. The State detected many
of the City’s violations and did not reimburse the City for the associated expenses. The program
inefficiency and ineffectiveness occurred because City officials erroneously concluded that their
plan for providing downpayment assistance with the program funds would be the best use of
those funds. The regulatory violations and unauthorized waivers occurred because City officials
either did not know program rules or knew them but believed that the City had adequate internal
controls to ensure that the funds would be used in accordance with its contract, Federal rules and
regulations, and State requirements. Because the City did not limit its CDBG Disaster Recovery
downpayment assistance program to persons and properties that most needed the assistance, the
program was not as effective as it could have been. Further, because the City was overly
generous with its assistance, it did not assist as many families as it could have assisted. Finally,
because the City official granted unauthorized and unwarranted waivers of program
requirements, the program was unequally enforced.


 The City Did Not Limit
 Assistance to Persons and
 Properties Directly Impacted

               Although the Disaster Recovery funds were to be used to help the State recover from
               the effects of Hurricane Ike, HUD and the State did not require the City to limit
               assistance to persons or properties directly impacted by the hurricane. The City
               adopted a broad view of disaster recovery needs and used the funds to help low-to-
               moderate-income persons purchase new and existing homes in areas the City
               designated as having the greatest need of restoration. These areas included areas
               targeted for revitalization and surrounding communities affected by the hurricane.
               Assisting any low-to-moderate-income first-time home buyer in purchasing a
               property not directly affected by the hurricane, although allowed by HUD and the
               State, was not the most efficient use of Disaster Recovery funds.




                                                 5
    The City Was Overly Generous
    With Disaster Recovery
    Assistance

                  According to the City’s August 2011 monthly report, there were 528 applicants
                  for downpayment assistance. The City provided up to $45,000 in downpayment
                  assistance to 292 4 low-to-moderate-income applicants who purchased homes
                  within Houston’s city limits. The limit for buyers purchasing properties within
                  low-to-moderate-income census tracts was $45,000, while the limit for all other
                  areas within the city limits was $19,500. The State would have allowed the City
                  to provide up to $50,000 in assistance. However, according to the City’s
                  Department of Housing and Community Development staff, the City limited
                  assistance to $45,000 because city council approval would have been needed for
                  each $50,000 grant and the City wanted to avoid having to obtain separate
                  approval for each request.

                  The City’s average downpayment assistance provided for 55 sample properties
                  was $37,609. This average included $5,819 for closing costs and $31,791 for
                  downpayment costs and principal reductions. The average purchase price of the
                  55 sample homes was $113,545. The assistance significantly reduced the average
                  mortgage loan amounts for the buyers. The chart below shows the relationship
                  between the average assistance provided and the average loan.

                  The average purchase price of 55 sample homes was $113,545.




                  The City had three additional assistance programs with lower assistance limits
                  than the Disaster Recovery downpayment assistance program. The limits for two

4
     The State reimbursed the City for only 283 of the 292 awards.


                                                         6
            of these programs were $30,000. The limit for the third program was $19,500.
            Further, the three programs used all of their funding each year, which
            demonstrated a high demand for such assistance. Therefore, if the City had
            limited its Disaster Recovery downpayment assistance to $30,000 instead of
            $45,000, it could have assisted more families. The City’s three downpayment
            assistance programs, their assistance limits, and funding sources included

            •   The Houston HOPE Downpayment Assistance Program, which limited its
                awards to $30,000 and was funded by two Federal programs – the HOME
                Investment Partnerships program and the American Dream Downpayment
                Initiative;
            •   The Workforce Housing Downpayment Assistance Program, which limited its
                awards to $30,000 and was locally funded by the Tax Increment Reinvestment
                Zone; and
            •   The Houston Homebuyer Assistance Program, which limited its awards to
                $19,500 and was funded by two Federal programs and a local program – the
                HOME Investment Partnerships program, the American Dream Downpayment
                Initiative, and the local Tax Increment Reinvestment Zone.

The City Violated Its Contract
With the State and Its Own
Policies in 9 of 55 Files
Reviewed

            We reviewed 55 case files and found that the City violated its contract with the
            State and its own policies in 8 cases and required the purchaser in a 9th case to
            have a longer affordability period than other purchasers using the same program.
            Table 1 shows the types of errors in the sample cases:

            Table 1
                                                        City         State
                 Type of error        Occurrences     awarded     reimbursed
             Buyer exceeded income         4           $180,000              $0
             limit
             File lacked supporting        3           $109,500              $0
             documentation
             Loan exceeded debt-to-        1            $45,000              $0
             income ratio limit
             Affordability period          1            $45,000              $0
             exceeded requirement
             Totals                        9           $379,500             $0

            In four cases, the City approved funding for ineligible participants whose income
            exceeded the limits for low-to-moderate-income families. According to the City’s
            guidelines, families whose projected annual income exceeded 120 percent of the
            area’s median income were ineligible to receive assistance through its Disaster


                                               7
                 Recovery program. The City approved $180,000 5 in downpayment assistance
                 funding to the four ineligible participants. The State identified the errors and did
                 not reimburse the City.

                 In three cases, files did not contain all the necessary supporting documentation.
                 Files were missing documentation showing child support, income tax returns, and
                 flood insurance. The City approved $109,500 6 in downpayment assistance for the
                 three participants. The State deemed the assistance to be ineligible based upon
                 the program guidelines and did not reimburse the City.

                 For example, in one case, the borrower’s debt-to-income ratio was too high.
                 According to the City’s guidelines, an applicant’s debt-to-income ratio for the
                 principal loan must not exceed 46 percent, but this borrower’s ratio was nearly 49
                 percent. The City approved the participant for $45,000 in downpayment
                 assistance, but the State caught the error and did not reimburse the City.

                 In a second case, the City did not follow the Federal Disaster Recovery guidelines
                 regarding the affordability period. The City awarded one participant $45,000 and
                 required an affordability period of 10 years, when the City’s guidelines specified
                 only a 5-year affordability period. According to the City’s downpayment
                 assistance guidelines, 7 “The terms of assistance are a 0% interest, five (5) years,
                 deferred payment/forgivable loan with a deed restriction imposed on the property
                 that provides that the property be occupied for a period of at least five (5) years
                 (“Affordability Period”) by that applicant as his/her principal residence.” The
                 State did not reimburse the City for this participant.

                 According to the City’s staff, the City used its local Tax Increment Reinvestment
                 Zone funds to pay for the downpayment assistance when the State did not
                 reimburse it from Federal Disaster Recovery funds.

    Unwarranted and Unauthorized
    Exceptions Were Granted by a
    City Official

                 The City granted unwarranted exceptions to its guidelines in 14 of the 55 cases
                 reviewed. A City official approved some buyers for $45,000 in downpayment
                 assistance with Disaster Recovery funds, although their homes were located
                 outside designated areas; thus, assistance was limited to $19,500.




5
     $45,000 x 4 = $180,000
6
     $45,000 + $45,000 +$19,500 = $109,500
7
     Page 6 of the City’s Downpayment Assistance Program for Hurricanes Dolly and Ike Disaster Relief


                                                       8
                Table 2 is a list of the 14 properties, the City award amounts, and the amounts
                reimbursed by the State.

                   Table 2: Cases with unwarranted and unauthorized waivers
                    Count     State ID#       City award     State reimbursed
                       1     1001000027             $45,000             19,500
                       2     1001000170              45,000             19,500
                       3     1001000033              45,000             19,500
                       4     1001000200              45,000             19,500
                       5     1001000119              45,000             19,500
                       6     1001000194              45,000             19,500
                       7     1001000067              45,000             19,500
                       8     1001000134              45,000             19,500
                       9     1001000043              45,000             19,500
                      10     1001000184              45,000             19,500
                      11     1001000182              45,000             19,500
                      12     1001000225              45,000             19,500
                      13     1001000022              45,000             19,500
                                      8
                      14        None                 45,000                 $0
                                Totals            $630,000            $253,500

                Documents in the case files showed that certain lenders, realtors, and builders
                pressured the City official to increase awards from $19,500 to $45,000 for their
                applicants. State records showed that the State detected the errors and did not
                reimburse the City for more than $19,500 for these applicants. According to City
                staff, the City used its local Tax Increment Reinvestment Zone funds to pay the
                difference.

                For example, in one email to the City official, a realtor wanted to know why the
                City could not approve an award of $45,000. In response to the email, the City
                official wrote, “OK... Approved for $45,000...” 9 The State determined that the
                property was not located in a designated area and reimbursed the City only
                $19,500 for the award.

                In a second example, a realtor questioned the City’s decision regarding the
                location of a property and the award amount. The City’s planner, the person
                responsible for performing the demographic analysis, determined that the property
                was located outside the designated area, which entitled the applicant to only a
                $19,500 award. However, the realtor in an email wrote, “I verified through the




8
    No number was assigned because the State cancelled the transaction.
9
    Integrated Disbursement and Information System number 1001000027


                                                      9
                    GIMS website 10 that this address is in the revitalization zone and should be
                    approved for the $45k.” Within 2 hours, the City official responded,
                    “Approved!!! Based on my map review this property falls well within the
                    Revitalization Area.” According to the city planner, the property did not fall
                    within the designated area. Further, the buyer was determined to be ineligible
                    because his income exceeded the income limits. The State did not reimburse the
                    City for this award.

                    The City official had no clear justification or authority for granting the
                    exceptions. The City had no written and approved policy outlining the criteria for
                    granting exceptions. Further, the State had no approved exception criteria in its
                    guidelines. In its cover letter approving the City’s downpayment assistance with
                    Disaster Recovery fund guidelines, the State said, “The City must administer its
                    housing program according to the approved Guidelines. If additional changes
                    become necessary during the administration of the program, the City must submit
                    a revised version of the Guidelines to TDHCA [Texas Department of Housing and
                    Community Affairs] for review and approval.”

                    The City did not fairly award the grant funds because there was no clear
                    justification or authority for granting the waivers. However, State records showed
                    that it reimbursed the City according to the approved guidelines and not based
                    upon the exceptions granted by the City.

     The City’s Controls Were Not
     Sufficient to Prevent Errors and
     Abuse

                    The errors and abuses discussed above occurred because the City either did not
                    know program rules or knew them but thought that its existing internal controls
                    were sufficient to ensure compliance. In either case, its internal controls were not
                    sufficient to prevent it from awarding grants to ineligible persons or for ineligible
                    properties or to prevent City officials from granting unwarranted and
                    unauthorized exceptions to program requirements.

     Conclusion

                    The City did not limit downpayment assistance with Disaster Recovery funds to
                    those families and properties most affected by the hurricane. Further, it was
                    overly generous with the $45,000 awards and did not assist as many families as it
                    could have. It violated its contract with the State and its own policies and did not
                    award funds fairly because one of its officials granted unwarranted and
                    unauthorized waivers to program requirements. These conditions occurred

10
       Geographic Information Management System at http://www.houstongims.org/html/home.html is a City of
       Houston public works department geographic information system with analytic and reporting capabilities as
       well as standard and custom mapping applications.


                                                          10
          because City officials erroneously concluded that their plan for providing
          downpayment assistance with the program funds would be the best use of those
          funds. Further, City officials either did not know program rules or knew them but
          believed that the City had adequate internal controls to ensure that the funds
          would be used in accordance with its contract, Federal rules and regulations, and
          State requirements.

Recommendation

          We recommend that the State require the City to

          1A. Ensure that the City submits for the State’s approval an exception policy
              that addresses which City officials may grant waivers and under what
              circumstances.




                                          11
                        SCOPE AND METHODOLOGY


We performed our onsite work at the City’s Housing and Community Development Department
located at 601 Sawyer Street, Houston, TX, between December 2011 and March 2012. The audit
scope covered the period January 1, 2009, through September 30, 2011, and was extended as
necessary.

To accomplish our audit objective, we

   •   Reviewed relevant HUD CDBG Disaster Recovery regulations, guidebooks, and policies.
   •   Reviewed the City’s policies, procedures, guidelines, and performance reports pertaining
       to its CDBG Disaster Recovery downpayment assistance program.
   •   Reviewed the State’s policies, guidelines, and performance reports pertaining to the
       CDBG Disaster Recovery programs.
   •   Analyzed and reviewed the CDBG Disaster Recovery grant agreement between the State
       and the City.
   •   Reviewed the City’s audited financial statements for June 2009 and June 2010.
   •   Obtained and reviewed payment and case data from HUD’s Line Of Credit Control
       System and Integrated Disbursement and Information System.
   •   Analyzed and reviewed a nonstatistical sample of 55 client files.
   •   Obtained and reviewed State and City CDBG Disaster Recovery disbursements.
   •   Interviewed key personnel from the City and Texas General Land Office.
   •   Researched business and property records using the Internet and lexis.com.

Initially, we selected a nonstatistical sample of 26 Disaster Recovery program cases totaling
more than $1 million from a universe of 292 cases. We selected an additional 29 files totaling
more than $1.1 million based upon the following criteria: (1) properties located outside the
Houston city limits, (2) cases in which the State did not fully reimburse the City, and (3) cases
originated by certain lenders. The results of the testing apply only to the 55 cases reviewed and
cannot be projected to the total population of 292 cases. Our use of computer processed data was
limited to a spreadsheet from the City containing the 292 cases, and a table from the State
showing 300 payments that had been submitted, 8 had been canceled, and only 292 were
approved and active or closed. We did not evaluate the computer-processed data because we
only used it for background and sample selection purposes.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               12
                        APPENDIXES

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation      Auditee Comments




                            13
Comment 1



Comment 2




Comment 3




Comment 4




            14
Comment 5




Comment 6




            15
                         OIG Evaluation of Auditee Comments

Comment 1   The City misstated the OIG's position regarding properties affected by Hurricane
            Ike. The City said it declared all of Houston to be affected by Hurricane Ike,
            making all properties within the city limits eligible for downpayment assistance
            with federal disaster recovery funding. The OIG's position is that not all
            properties were damaged by the hurricane; thus, blanket eligibility for the entire
            City, while not a strict violation of program rules, was not a prudent use of
            disaster recovery funding. We did not change the report based on the comment.

Comment 2   The City stated that it reduced the award amounts from a maximum of $45,000 to
            a maximum of $30,000 after the summer of 2010. The City may have reduced the
            award amounts late in the program; however, the average assistance for the 55
            sample properties that OIG tested was $37,609. We did not change the report
            based on the City’s comment.

Comment 3   The City provided a map of the City limits and tax rolls as evidence that six of the
            properties were located within the City limits and subject to City taxes. After
            reviewing this evidence, we agreed that the properties were eligible for assistance
            and we made appropriate changes to the report.

Comment 4   The City stated that it had detected and cancelled nine project files with errors.
            Further, the City maintained that it proactively reviewed all files to ensure it
            collected proper documentation and information, and that each project complied
            with Federal, State, and City regulations. The City did not provide evidence to
            support these assertions, and we did not change the report based on the comment.

Comment 5   The City agreed that one of its officials granted unwarranted waivers but stated
            that the official no longer works for the department overseeing the program.
            Further, the City stated that it used local sources for any funding in excess of
            program limits. We did not change the report based on the comment.

Comment 6   The City stated that it is developing a waiver policy which it will provide to HUD
            OIG by August 10, 2012. Further, it stated that it has taken many steps to ensure
            proper planning, analysis, and monitoring in its program operations.

            The City should provide its approved policy to Deputy Assistant Secretary for
            Grant Programs rather than to OIG. We did not change the report based on the
            comment.




                                             16
Appendix B

                               CASE DEFICIENCIES

                      Unwarranted
                          and
Sample    TDHCA*      unauthorized   Income        Document   Other    City         State
number     number       waivers       error          error    error   award      reimbursed
   1     1001000027        X                                          $ 45,000      $ 19,500
   2        None                       X                                45,000             0
   3        None           X           X                                45,000            0
   4        None                       X                                45,000            0
   5        None                                      X                 19,500            0
   6        None                                      X                 45,000            0
   7     1001000051                                   X                 45,000            0
   8     1001000114                    X                                45,000            0
   9     1001000148                                            X        45,000            0
  10     1001000001                                            X        45,000            0
  11     1001000170        X                                            45,000        19,500
  12     1001000033        X                                            45,000        19,500
  13     1001000022        X                                            45,000        19,500
  14     1001000200        X                                            45,000        19,500
  15     1001000119        X                                            45,000        19,500
  16     1001000194        X                                            45,000        19,500
  17     1001000067        X                                            45,000        19,500
  18     1001000134        X                                            45,000        19,500
  19     1001000043        X                                            45,000        19,500
  20     1001000184        X                                            45,000        19,500
  21     1001000182        X                                            45,000        19,500
  22     1001000225        X                                            45,000        19,500
         Totals                                                       $964,500     $253,500


* Texas Department of Housing and Community Affairs




                                              17
